BECKER GALLAGHER
Bri e fs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Reply Brief
for the Petitioners in 20-1009, David Shinn, et al. v.
DavidMartinezRamirezandBarry Lee Jones , was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day service and e-mail to
the following parties listed below, this 13th day of
October, 2021:
Lacey Stover Gard
Counsel of Record
Office of the Attorney General
400 West Congress Street
Bldg. S-315
Tucson, AZ 85701
(520) 628-6654
lacey.gard@azag.gov

Counsel for Petitioners
Robert Mark Loeb
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8475
rloeb@orrick.com

Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING IN<;ORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 13, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

ck~*
c J ~ 13,

Notary Public
[seal]

cY)c}-/

